SIGAR                                          Special Inspector General for
                                                Afghanistan Reconstruction




                                                              SIGAR Audit 13-14




        Contracting with the Enemy: State and USAID Need
        Stronger Authority to Terminate Contracts When Enemy
        Affiliations Are Identified




                                                                  JULY

                                                                 2013
SIGAR Audit 13-14/Contracting with the Enemy
   SIGAR
                                                          JULY 2013
                                                          Contracting with the Enemy: State and USAID Need
                                                          Stronger Authority to Terminate Contracts When Enemy
                                                          Affiliations Are Identified

                                                          SIGAR AUDIT 13-14
   Special Inspector General for
   Afghanistan Reconstruction                             WHAT SIGAR FOUND
                                                          To prevent U.S. funds from being provided to persons or entities
   WHAT SIGAR REVIEWED
                                                          supporting insurgents and others opposing the United States or
   In April 2013, SIGAR reported on the process           coalition forces, both State and USAID have established processes
   the Department of Defense (DOD) established to         for vetting non-U.S. contractors in Afghanistan. Since October 2012,
   comply with Section 841—Prohibition on                 State has vetted all non-U.S. contractors that are competitive for
   Contracting with the Enemy in the United States        each contract as well as their key individuals. State’s Office of Risk
   Central Command Theater of Operations—of the           Analysis and Management compares the information provided by
   Fiscal Year 2012 National Defense                      the contractor against various databases to determine whether
   Authorization Act and ways to strengthen the           derogatory information—which may include ties to enemy groups—
   legislation. The report noted that Section 841         on the company or its key individuals exists. Based on that
   does not provide the Department of State               information, the assistant secretary of the office funding the activity
   (State) or the U.S. Agency for International           makes the final decision on whether a contractor is eligible to
   Development (USAID) the legal authority to             receive a State-funded contract. If a contractor is deemed eligible,
   restrict, terminate, or void contracts with            the determination is valid for 1 year, unless there are changes in
   persons or entities opposing the United States         the company’s key individuals.
   or coalition forces—also known as Section 841
                                                          Similarly, USAID vets prime contractors, along with subcontractors
   designees. However, State and USAID use many
                                                          working directly for prime contractors, that are in the competitive
   of the same companies as DOD and have
                                                          range for receiving contracts valued over $25,000. The Vetting
   numerous contracts in Afghanistan. In addition,
                                                          Support Unit in USAID’s mission in Afghanistan reviews an
   State and USAID will have an enduring presence
                                                          information package from the contractor for completeness and
   in the country after the withdrawal of a
                                                          accuracy. If approved, it forwards the package to the agency’s
   significant number of U.S. military personnel in
                                                          Office of Security in Washington, D.C. If the Office of Security does
   December 2014.
                                                          not find derogatory information, it submits a recommendation of
   This report (1) describes the processes State          eligibility for the contractor to USAID/Afghanistan. The Senior
   and USAID have established to prevent                  Deputy Mission Director makes the final determination on whether
   contracting with persons or entities that actively     to declare a contractor ineligible for a contract. Like State, USAID
   support insurgencies or oppose U.S. or coalition       grants vetting approval for 1 year, unless the contractor’s key
   forces in Afghanistan, and (2) discusses the           individuals change.
   potential impact of State and USAID not having
                                                          State and USAID have received information on Section 841
   Section 841 contracting authority.
                                                          designees from DOD since November 2012. Although the agencies
                                                          take this information into consideration during their vetting
   MATTER FOR CONGRESSIONAL
                                                          processes, neither relies exclusively on this information when
   CONSIDERATION
                                                          making contracting decisions.
   Congress may wish to consider expanding
                                                          Because State and USAID were not included in Section 841, they
   Section 841 authority to State and USAID to
                                                          have no separate authority to terminate contracts with Section 841
   allow senior procurement executives to void,
                                                          designees for default, which would prevent the agencies from
   terminate for default, or restrict future awards to
                                                          paying up to the full cost of the contract. Although neither State nor
   persons or entities identified as enemies of the
                                                          USAID has active prime contracts with current Section 841
   United States. State and USAID commented that
                                                          designees, the agencies would have to terminate any contracts with
   they would welcome this authority, but both
                                                          future Section 841 designees for convenience. In doing so, the
   agencies expressed concern with proposals that
                                                          agencies would likely have to pay up to the full cost of the contracts
   would indiscriminately expand DOD-specific
                                                          in order to complete the termination as well as costs associated
   contracting provisions to them.
                                                          with obtaining a replacement contract.


For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 24, 2013


The Honorable John F. Kerry
Secretary of State
The Honorable James Cunningham
U.S. Ambassador to Afghanistan
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Mr. William Hammink
USAID Mission Director for Afghanistan


This report discusses the results of SIGAR’s audit of the procedures that the Department of
State and the U.S. Agency for International Development (USAID) have established to prevent
persons or entities identified as actively supporting insurgencies or opposing the United States
or coalition forces in Afghanistan from receiving U.S.-funded contracts.
The report highlights the fact that only DOD has authority under Section 841 to void, terminate,
or restrict awards of contracts to persons or entities identified as enemies of the United States.
To ensure that all contracts in a contingency operation are subject to provisions similar to
Section 841, SIGAR includes in this report a matter for congressional consideration for
providing similar authority to all government agencies.
In their written comments on a draft of this report, State and USAID stated that they would
welcome this authority, but both agencies expressed concern with proposals that would
indiscriminately expand DOD-specific contracting provisions to them. State and USAID’s
comments are reproduced in appendices II and III.
SIGAR conducted this performance audit under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended, and in accordance with
generally accepted government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2

State and USAID Vetting of Non-U.S. Contractors in Afghanistan Includes Checks for Ties to Enemy Groups ...... 3

Lack of Section 841 Authorities Prevents State and USAID from Terminating for Default Contracts with the
Enemy, Which Could Result in Having to Pay the Full Costs of Those Contracts..................................................... 5

Conclusion.................................................................................................................................................................... 5

Matter for Congressional Consideration .................................................................................................................... 6

Agency Comments ....................................................................................................................................................... 6

Appendix I - Scope and Methodology ......................................................................................................................... 7

Appendix II - Comments from Department of State ................................................................................................... 8

Appendix III - Comments from U.S. Agency for International Development ........................................................... 10

Appendix IV - Acknowledgments ............................................................................................................................... 12




ABBREVIATIONS & ACRONYMS

        CENTCOM                         U.S. Central Command

        DOD                             Department of Defense

        NDAA                            National Defense Authorization Act
        RAM                             Office of Risk Analysis and Management (Department of State)

        State                           Department of State

        TSC                             Terrorist Screening Center
        USAID                           U.S. Agency for International Development




SIGAR Audit 13-14/Contracting with the Enemy                                                                                                                           Page i
Since 2002, U.S. military and civilian agencies have relied on contractors to provide a broad range of supplies,
services, and critical logistics and reconstruction functions in Afghanistan. Several prior audit and research
reports discuss the numerous and unique challenges of contracting in Afghanistan, particularly with non-U.S.
contractors. 1 These challenges include the limited availability of staff to oversee contracts, the small pool of
qualified local contractors, and an insecure and corrupt environment that increases the risk of U.S. funds being
used to finance terrorist or insurgent groups. In an effort to reduce this risk, Congress established Section
841—Prohibition on Contracting with the Enemy in the United States Central Command Theater of Operations—
of the National Defense Authorization Act for Fiscal Year 2012 (NDAA). 2 Section 841 permits the Department
of Defense (DOD), pursuant to a request from the U.S. Central Command (CENTCOM) 3 Commander, to
authorize the Head of a Contracting Activity 4 to restrict the award of, terminate, or void a DOD contract, grant,
or cooperative agreement that it determines would provide funding directly or indirectly to a person or entity
identified as actively supporting an insurgency or otherwise actively opposing U.S. or coalition forces in the
CENTCOM theater of operations, including Afghanistan. 5
In April 2013, we reported on the process DOD established to comply with Section 841, the limitations of this
process, and how that legislation could be strengthened. 6 In that report, we noted that Section 841 does not
provide the Department of State (State) or the U.S. Agency for International Development (USAID) the legal
authority to restrict, terminate, or void contracts with Section 841 designees. However, State and USAID
contract with many of the same companies as DOD, and both agencies have numerous contracts in
Afghanistan. In fiscal year 2012, State awarded 29 contracts valued at $961 million and USAID awarded 276
contracts valued at $2.07 billion. In addition, State and USAID will have an enduring presence in the country
after the withdrawal of a significant number of U.S. military personnel and resources is complete in December
2014. In light of these concerns and congressional interest, we initiated a review to examine efforts by State
and USAID to prevent contracting with the enemy.
This report (1) describes the processes State and USAID have established to prevent contracting with persons
or entities that actively support insurgencies or oppose U.S. or coalition forces in Afghanistan, and (2)
discusses the potential impact of State and USAID not having Section 841 contracting authorities.
To accomplish our objectives, we reviewed Section 841 and relevant sections of the Federal Acquisition
Regulation. We examined State and USAID contracting policies and procedures, including: (1) State’s standard
operating procedures for vetting contracts and grants, (2) USAID’s Mission Order for Afghanistan 201.04, and
(3) State and USAID’s risk foundation document for contracting and grants. We also analyzed data on the


1 U.S. Government Accountability Office, U.S. Efforts to Vet Non-U.S. Contractors Need Improvement, GAO-11-355, June 8,

2011; Congressional Research Service, Wartime Contracting in Afghanistan: Analysis and Issues for Congress, November
14, 2011; Committee on Oversight and Government Reform, Warlord, Inc.: Extortion and Corruption Along the U.S. Supply
Chain in Afghanistan, June 22, 2010; and U.S. Agency for International Development, Accountable Assistance for
Afghanistan Report, August 18, 2011.
2Pub. L. No. 112-81.
3CENTCOM is one of nine combatant commands in the U.S. military. The command’s area of responsibility consists of
20 countries in Middle East and Southwest Asia, including Afghanistan.
4 According to Defense Federal Acquisition Regulation Supplement, Subpart 202.1, a DOD contracting activity is an entity

designated by the director of a defense agency with contracting authority through its agency charter. For example, the
U.S. Army Corps of Engineers is considered a Head of Contracting Activity. Large DOD agencies, such as the Department
of the Army, may have multiple HCAs under their command.
5 For the purposes of this report, we use the term “contract” to refer collectively to contracts, grants, and cooperative

agreements, unless noted otherwise.
6 See SIGAR Audit 13-6, Contracting with the Enemy: DOD Has Limited Assurance That Contractors With Links To Enemy

Groups Are Identified And Their Contracts Terminated, April 11, 2013.




SIGAR Audit 13-14/Contracting with the Enemy                                                                            Page 1
number and value of active State and USAID contracts in Afghanistan as of February 28, 2013. We interviewed
relevant State officials from the Office of the Undersecretary of Management, Office of Risk Analysis and
Management, and the U.S. Embassy in Kabul. We also interviewed USAID officials with Mission Afghanistan’s
Office of Acquisition and Assistance and Office of Financial Management as well as headquarters officials in
the Office of Counterterrorism and Information Security. We conducted our work in Washington, D.C., and
Kabul, Afghanistan, from October 2012 to July 2013, in accordance with generally accepted government
auditing standards. A discussion of our scope and methodology is included in appendix I.


BACKGROUND
DOD counterinsurgency contracting guidance issued in September 2010, and similar guidance issued by
State and USAID in November 2010, confirm the importance of contracting to the U.S. mission in
Afghanistan. In particular, the guidance emphasizes the importance of using Afghan contractors and
purchasing Afghan goods—a policy collectively known as the Afghan First Initiative—as a key element of the
U.S. counterinsurgency strategy. 7 This contracting guidance cautions that insufficient oversight could lead to
contracting funds being unintentionally funneled to support insurgent organizations.
In an effort to prevent U.S. funds in the CENTCOM theater of operations, including Afghanistan, from being
diverted to terrorist or insurgent groups, Congress established Section 841 in the fiscal year 2012 NDAA. 8
In addition to prohibiting contracting with terrorist or insurgent groups, Section 841:
    •    Requires the CENTCOM Commander to establish a program to review and identify persons and entities
         with DOD contracts, grants, or cooperative agreements who are actively supporting an insurgency or
         otherwise opposing U.S. or coalition forces in a contingency operation in the CENTCOM theater of
         operations.
    •    Permits the Secretary of Defense to authorize the Head of a Contracting Activity, pursuant to a request
         from the CENTCOM Commander, to restrict, terminate, or void a contract determined to provide
         funding to active insurgent elements and opponents of U.S. or coalition forces.
In our April 2013 report, we found that DOD had established a two-phase process to implement Section 841.
Using this process, DOD designated five companies and their associates as supporters of enemy groups. 9
Although no prime contracts had been terminated as a result of those designations, one prime contractor
terminated eight active subcontracts awarded to a Section 841 designee. 10 Despite these actions, we
concluded that DOD had limited assurance that contractors with links to enemy groups were identified and
their contracts terminated because of weaknesses in its Section 841 process. As a result, we made seven



7 Under the Afghan First Initiative, U.S. military and civilian agencies operating in Afghanistan have taken steps to ensure

that a greater number of contracts are awarded to Afghan companies. We previously reported on this initiative (see SIGAR
Audit-12-6, Afghan First Initiative Has Placed Work with Afghan Companies, but Is Affected by Inconsistent Contract
Solicitation and Vetting, and Employment Data Is Limited, January 31, 2012).
8 The NDAA authorizes appropriations for military activities of the Department of Defense, for military construction, to

prescribe military personnel strengths, and for other purposes.
9 On January 18, 2013, CENTCOM issued the fourth notification letter on the Kam Airlines group of companies and their
associates. On February 9, 2013, CENTCOM suspended the January 18, 2013, notification with the understanding that an
independent investigation of the activities of Kam Air and their associates will be conducted by the Afghan government.
For a complete listing of Section 841 designated companies and their affiliates, see the CENTCOM website at
www2.centcom.mil/sites/contracts.
10 The value of these subcontracts was approximately $12 million; about $5 million had been paid to the subcontractor

when the contracts were terminated.




SIGAR Audit 13-14/Contracting with the Enemy                                                                           Page 2
recommendations: five to address DOD’s visibility over active contracts, one to prevent duplication of data
collection, and one to provide guidance once actions are taken to restrict, terminate, or void a contract under
Section 841. We also proposed two matters for congressional consideration that would strengthen the
legislation. We continue to follow up on any actions that may be taken on our recommendations.
Due to an increased emphasis on contracting with host nation companies and the associated risk of contract
funds being diverted to criminal or insurgent groups, Congress authorized State to establish a pilot program for
vetting contractors in 2010. Originally including only five countries—Guatemala, Kenya, Lebanon, Philippines,
and the Ukraine—State’s pilot program began vetting non-U.S. companies and their officials in Afghanistan in
October 2012. Effective May 9, 2011, USAID/Afghanistan Mission Order 201.04 outlines the Afghan First
Initiative and describes procedures to ensure that the agency’s programs in Afghanistan do not provide
support to prohibited parties, either intentionally or inadvertently.


STATE AND USAID VETTING OF NON-U.S. CONTRACTORS IN AFGHANISTAN
INCLUDES CHECKS FOR TIES TO ENEMY GROUPS

State’s vetting program uses a risk-based approach for vetting contractors and their key individuals. 11 The
Office of Risk Analysis and Management (RAM) manages the vetting program and sets the risk criteria for
vetting non-U.S. contractors. In Afghanistan, RAM vets all non-U.S. contractors that are in the competitive range
for a particular contract because the department considers them high risk. 12 Each contractor is required to
submit information on the company, which includes the Afghanistan business license number and the
citizenship and tribal affiliations of the company and its key individuals. In addition to reviewing the information
provided by the contractor for completeness and accuracy, the vetting unit also checks the information against
various databases to determine whether derogatory information—which may include ties to enemy groups—on
the company or its key individuals, exists. If derogatory information does exist, RAM forwards the information to
the assistant secretary of the bureau funding the activity, who is responsible for the final determination of
contractor eligibility. If a contractor is deemed eligible to receive a contract, this designation is valid for 1 year.
If there are changes in the company’s key individuals, the company is re-vetted. As of May 30, 2013, State had
vetted 219 non-U.S. individuals working in Afghanistan. All but two of these individuals have been cleared to
contract with State.
USAID/Afghanistan Mission Order 201.04 requires the agency to annually vet non-U.S. contractors, along with
first-tier subcontractors, 13 that the agency determines to be in the competitive range for contracts valued over
$25,000. 14 A non-U.S. contractor is required to submit an information package when it bids for a contract in
Afghanistan. This package includes information on applicable business licenses, bank accounts, citizenship,
and tribal affiliations of the company and its key individuals. USAID’s Vetting Support Unit in Afghanistan is the
first to review this package for completeness and accuracy. If the unit approves the package,
USAID/Afghanistan forwards it to the agency’s Office of Security in Washington, D.C., which uses the Terrorist
Screening Center to assess the information against various databases. 15 If the Office of Security does not find


11 Key individuals include large shareholders, principal officers of the company’s governing body, and relevant program

managers.
12   The competitive range comprises the most highly rated proposals.
13A first-tier subcontract is a subcontract awarded directly by the prime contractor in order to perform the requirements of
the prime contract.
14   USAID reduced the threshold from $150,000 to $25,000 on January 1, 2013.
15 Established by Presidential Directive in 2003, the Terrorist Screening Center (TSC) is a multi-agency organization

administered by the Federal Bureau of Investigation whose aim is to identify suspected or potential terrorists. It is




SIGAR Audit 13-14/Contracting with the Enemy                                                                            Page 3
derogatory information, it submits a recommendation of eligibility for the contractor to USAID/Afghanistan.
However, if the Office of Security does find sufficient derogatory information, the office recommends that the
contractor be deemed ineligible. The office sends its recommendation, with the supporting information, back to
USAID/Afghanistan. The Senior Deputy Mission Director makes the final determination on a contractor’s
eligibility for a contract. The Senior Deputy Mission Director may make an exception, allowing a contractor
initially deemed ineligible to receive the contract, based on an analysis to determine the negative impact of not
awarding a specific contract. 16 Like State, USAID grants vetting approval for 1 year, unless a change occurs
with the contractor’s key individuals. As of June 20, 2013, USAID had reviewed 1,639 vetting requests for
organizations seeking contracts with the agency in Afghanistan. 17 The agency determined that 30 of these
requests, which pertained to 20 different organizations, were ineligible. 18


State and USAID Consider, but Do Not Rely on, Section 841 Designations when
Vetting Contractors
State and USAID regularly receive information from DOD on persons and entities designated under Section
841 as supporting insurgents or otherwise opposing U.S. or coalition forces. However, neither agency relies
solely on this information during its vetting process. Further, a Section 841 designation by CENTCOM does not
automatically disqualify a person or entity from receiving a contract with State or USAID. State and USAID have
been included in CENTCOM’s Section 841 distribution list since November 2012. 19 According to agency
officials, after receiving a letter, State and USAID separately determine whether they have any active contracts
with the identified designee. In addition, officials told us that both agencies take these designations into
consideration when making contracting decisions.
In addition to receiving the Section 841 designation letters, State and USAID participate in regular meetings
with DOD officials regarding ongoing investigations of potential designees because the agencies use many of
the same contractors. 20




responsible for maintaining the Terrorist Screening Database, also known as the Terrorist Watchlist, for the U.S.
government. USAID has employees detailed to the TSC that have access to their databases.
16   The Senior Deputy Mission Director had not made any exceptions as of February 2013.
17According to a USAID official, organizations can submit multiple vetting requests. As part of its review of the 1,639
vetting requests, USAID vetted 3,124 individuals.
18 The 30 ineligible requests represent 88 individuals. However, as an agency official explained, not all of those individuals

necessarily have negative information against them. For example, if any of an organization’s key individuals has any ties to
terrorism, the entire organization would be potentially declared ineligible. USAID does not inform the organization of which
individual had the negative information discovered to protect its sources and processes.
19 In addition, SIGAR Investigations issued an alert letter on October 17, 2012, notifying State and USAID of the first two

groups of individuals and entities identified as Section 841 designees.
20 These include bi-weekly meetings of the Vendor Vetting Advisory Panel and the Fusion Cell. The Vendor Vetting Advisory

Panel reviews potential contractors listed as high or extremely high on the force protection scale. The Fusion Cell meetings
are held by CENTCOM to receive and share informal input on the vetting process. These meetings also discuss any political
implications that could result from a Section 841 designation.




SIGAR Audit 13-14/Contracting with the Enemy                                                                              Page 4
LACK OF SECTION 841 AUTHORITIES PREVENTS STATE AND USAID FROM
TERMINATING FOR DEFAULT CONTRACTS WITH THE ENEMY, WHICH COULD
RESULT IN HAVING TO PAY THE FULL COSTS OF THOSE CONTRACTS

Unlike DOD, State and USAID were not included in Section 841 and have no separate authority to terminate for
default contracts with Section 841 designees. Terminating for default would protect the agencies from having
to pay up to the full cost of the contract. 21
Based on our review of data provided by USAID on its contracts in Afghanistan as of December 31, 2012, we
determined that the agency does not have active prime contracts or first-tier subcontracts with the current
Section 841 designees identified by DOD. 22 State officials told us that their agency does not have active prime
contracts with these designees, but we were unable to verify this. 23 Officials from both agencies told us that if
a State or USAID contractor were designated as a supporter of enemy groups under Section 841, contracting
officials would perform their own independent assessment and re-vet the contractor to determine whether the
contract should be terminated. If they decided to terminate the contract, agency officials indicated that they
would likely attempt to terminate for convenience, which could result in the agencies paying up to the full cost
of the terminated contracts. 24 Moreover, if either State or USAID decide to terminate a contract with a Section
841 designee for convenience, officials stated that the agencies would likely incur additional costs to complete
the termination and costs associated with obtaining another contract to complete the work begun by the
terminated contractor.


CONCLUSION

Despite the U.S. government’s objective of not supporting insurgent and terrorist activities, Section 841
applies only to DOD; it does not include State and USAID, the other two major contracting agencies in
Afghanistan. State and USAID have established procedures for vetting non-U.S. contractors in Afghanistan and
take DOD’s Section 841 designations into consideration. However, their lack of express authority to terminate
for default contracts with Section 841 designees means that they could be obligated to pay the full cost of
contracts with parties determined to be supporting the enemies of the United States. The funds paid to those
contractors could then be funneled to insurgent or terrorist groups. Moreover, because State and USAID do not
have express authority under Section 841 to restrict the award of contracts, they could award new contracts to
persons or entities that are providing support to groups that are intent on disrupting U.S. and international
reconstruction efforts and harming military and civilian personnel in Afghanistan. This risk may be exacerbated




21 Termination for default is the U.S. government's contractual right to completely or partially terminate a contract because

of the contractor's actual or anticipated failure to perform its contractual obligations. When a contracting agency makes the
decision to terminate a contract for default, it is not liable to pay any additional costs under the contract beyond the
reasonable value of the work accepted by the government.
22 The data USAID provided primarily listed contracts valued over $150,000; however, we identified contracts that were

below this amount as well as entries with missing data fields.
23 We received data from State on its contracts in Afghanistan; however, this data was incomplete at the time we

completed this audit. As a result, we were unable to independently verify that the department did not have active prime
contracts with current Section 841 designees.
24 Terminationfor convenience gives the U.S. government the right to terminate a contract without cause at any time after
award. The contracting agency negotiates with the contractor to reach a bilateral agreement settling the termination, which
includes determining the outstanding costs the contracting agency will pay the contractor.




SIGAR Audit 13-14/Contracting with the Enemy                                                                         Page 5
as State and USAID are expected to continue spending hundreds of millions of dollars on contracts in
Afghanistan, even after the U.S. military’s combat mission ends in 2014.


MATTER FOR CONGRESSIONAL CONSIDERATION

To ensure that all contracts in a contingency operation are subject to provisions similar to Section 841,
Congress may wish to consider replacing Section 841, which applies only to DOD, with a government-wide
authority that would allow senior procurement executives and commanders to void, terminate for default, or
restrict future awards to persons or entities identified as enemies of the United States.


AGENCY COMMENTS

State and USAID provided written comments on a draft of this report, which are reproduced in appendices II
and III, respectively.
In its response to our matter for congressional consideration, State commented that it does not believe that
the department has been hindered by a lack of Section 841 authority, noting that its pre-award vetting
process, which considers DOD Section 841 determinations, provides reasonable assurance against awards to
offending contractors or grantees. State added that no terminations have been required because of enemy
affiliation. State commented that, in the event a termination was necessary, terminations for convenience
would not necessarily require payment of the full contract price unless performance were substantially
complete and the government had received value. While State added that it would welcome additional
authorities to terminate contracts or grants going to entities “determined to support terrorism,” it also noted
that it has some concerns with proposals that would indiscriminately expand DOD contracting provisions to
State.
USAID also commented that it does not believe that the agency’s efforts to protect against the diversion of
funds to terrorists have been hindered by a lack of Section 841 authority. USAID noted that although no new
designations have been added under Section 841 in over 6 months, the agency has at the same time declared
26 awardees or sub-awardees to be ineligible as a result of its vetting process (for a total of 34 ineligible
awards declared from February to July 2013). According to USAID, these 34 ineligible award determinations
have helped ensure that almost $33 million in development funds were not disbursed to individuals or
organizations for whom questionable or unacceptable derogatory information was found. Like State, USAID
stated that it would welcome additional authorities, such as authority to void contracts to ensure that no U.S.
government funds go to “terrorists.” However, USAID also indicated that it would have concerns with proposals
that would indiscriminately expand DOD contracting provisions to the agency, stating that “DOD and USAID
have different purposes and modalities for contracting, which is why [they] have different authorities and not
identical systems.”
We support State’s and USAID’s efforts to vet non-U.S. contractors prior to awarding contracts. However, we
maintain that replacing Section 841 legislation with a government-wide authority would benefit both agencies
by providing them with the authority to restrict, terminate for default, or void ongoing and future contracts with
persons or entities identified as enemies of the United States—not solely those individuals and entities and
individuals identified as “terrorists”—without absorbing any additional contract costs. Furthermore, although we
agree that each agency has its own system for contracting, we do not think that, should Congress grant the
authorities under Section 841 legislation to State and USAID, it would also by necessity require those agencies
to replicate DOD’s contracting procedures.




SIGAR Audit 13-14/Contracting with the Enemy                                                               Page 6
APPENDIX I - SCOPE AND METHODOLOGY

This report (1) describes the processes the Department of State (State) and U.S. Agency for International
Development (USAID) have established to prevent contracting with persons or entities that actively support
insurgencies or oppose U.S. or coalitions forces in Afghanistan and (2) discusses the potential impact of State
and USAID not having Section 841 authorities on their contracting activities. We do not discuss the mechanics
of the vetting processes used by State and USAID in detail because we did not evaluate the effectiveness of
the methods used by the agencies to conduct the vetting.
To describe the processes State and USAID established to prevent contracting with persons or entities that
actively support insurgencies or oppose U.S. or coalition forces in Afghanistan, we reviewed the Department of
State standard operating procedures for vetting of contracts and grants, USAID’s Mission Order for Afghanistan
201.04, State and USAID’s risk foundation document for contracting and grants. 25 We reviewed Section 841
of the National Defense Authorization Act for Fiscal Year 2012, Department of Defense’s (DOD) Section 841
notification letters, and applicable sections of the Federal Acquisition Regulations. We also reviewed
information in our April 2013 report on DOD’s process for implementing Section 841. 26 We interviewed
relevant State officials from the Office of the Undersecretary of Management and the Office of Risk Analysis
and Management, and relevant USAID officials from the Office of Acquisition and Assistance and the Office of
Financial Management at the Mission in Afghanistan and the Office of Counterterrorism and Information
Security at UASID headquarters.
To determine the impact of State and USAID not having Section 841 authorities on their contracting activities,
we reviewed DOD’s Section 841 notification letters identifying current designees. We also reviewed data on
ongoing USAID contracts in Afghanistan as of December 31, 2012, to determine whether the agency had
active prime contracts or first-tier subcontracts with Section 841 designees. We were unable to independently
verify that State did not have active prime contractors who were Section 841 designees because data from
State was incomplete at the time we completed the audit. In addition, we interviewed relevant State officials
from the Office of the Undersecretary of Management and the Office of Risk Analysis and Management. We
also met with relevant USAID officials from the Offices of Acquisition and Assistance and Financial
Management in Afghanistan and the Office of Counterterrorism and Information Security.
We did not use or rely on computer-processed data for the purposes of the audit objectives or assess internal
controls.
We conducted work in Washington, D.C., and Kabul, Afghanistan, from October 2012 to July 2013, in
accordance with generally accepted government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. The audit was conducted by the Office of
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended.




25   USAID’s Mission Order 201.04 covers non-U.S. party vetting of contractors.
26   SIGAR Audit 13-6.




SIGAR Audit 13-14/Contracting with the Enemy                                                             Page 7
APPENDIX II - COMMENTS FROM DEPARTMENT OF STATE




                                                                 United States Department of State

                                                                 Washington , D.C. 20520




                                                                July 18, 2013

             Elizabeth A. Field
             Assistant Inspector General for Audits and Investigations
             Special Inspector General for Afghanistan Reconstruction (SIGAR)
             1550 Crystal Drive, Suite 900
             Arlington, VA 22202

             Dear Ms. Field:

                   Thank you for the opportunity to provide the Department of State's
             comments on SIGAR draft Audit 13-14, "Contracting with the Enemy: State and
             USAID Need Stronger Authority to Terminate Contracts When Enemy Affiliations
             Are Identified."

                    The Department takes thorough and exhaustive measures to properly vet
             recipients of USG funds against all relevant and available information to ensure
             that our programs and contracts advance the foreign policy and security interests of
             the United States. As the audit notes, Section 841 findings by CENTCOM under
             current authorities are included in this review process. The Department has
             established vetting procedures in coordination with our relevant Congressional
             oversight committees to ensure that recipients of contracts, grants, and cooperative
             agreements executed by our agency are reviewed against relevant USG databases
             and available information. Department of State and USATD vetting procedures
             have been established in accordance with our relevant procurement and grant
             making authorities to ensure that they can withstand legal challenge, while
             appropriately protecting classified information.

                   We do not believe that the Department has been hindered by a lack of
             Section 841 authority. The pre-award vetting process, which considers DOD
             Section 841 determinations, provides reasonable assurance against awards to
             offending contractors or grantees. No terminations have been required because of
             enemy affiliation. Currently, in the event a termination was necessary,
             terminations for convenience would not necessarily require payment of the full




SIGAR Audit 13-14/Contracting with the Enemy                                                         Page 8
                                                                                              2


             contract price unless performance were substantially complete and the government
             had received value.
                    We welcome further dialogue on how to improve existing measures, but do
             have some concerns with proposals that would indiscriminately expand
             Department of Defense contracting provisions to the Department of State. We
             would welcome additional authority to terminate contracts or grants going to
             entities determined to support terrorism.

                   Thank you again for the opportunity to comment, and we welcome any
             questions.




                                                        s~~
                                                        Dan Feldman
                                                        Deputy Special Representative for
                                                          Afghanistan and Pakistan




SIGAR Audit 13-14/Contracting with the Enemy                                                      Page 9
APPENDIX III - COMMENTS FROM U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




                       USAID
                       FROM THE AMERICAN PEOPLE



             Elizabeth A. Field
             Assistant Inspector General for Audits and Investigations
             Special Inspector General for Afghanistan Reconstruction (SIGAR)
             1550 Crystal Drive, Suite 900
             Arlington, VA 22202

             Dear Ms. Field:

                    Thank you for the opportunity to provide comments from the U.S. Agency
             for International Development (USAID) on the draft of SIGAR Audit 13-14,
             "Contracting with the Enemy: State and USAID Need Stronger Authority to
             Terminate Contracts When Enemy Affiliations Are Identified."

                    USAID agrees that no U.S. funds should be diverted to our nation's enemies.
             To that end, USAID has established an exhaustive vetting program in Afghanistan
             that has a proven track record of effectiveness. As the draft audit notes, this
             program draws on a variety of sources of information from across the U.S.
             government (USG), including Section 841 designations by the Department of
             Defense (DoD). To date, USAID's vetting program in Afghanistan has made 34
             ineligible award determinations which have helped ensure that almost $33 million
             in development funds were not dispersed to individuals or organizations for whom
             questionable or unacceptable derogatory information was found.

                    USAID does not believe that our efforts to protect against diversion of funds
             to terrorists have been hindered by a lack of Section 841 authority. For example,
             while no new designations have been added under Section 841 in over 6 months,
             USAID has at the same time declared 26 awardees/sub-awardees to be ineligible
             through our vetting processes (for a total of34 ineligible awards).

                   USAID would certainly welcome additional authorities, such as an
             independent grant of authority to the Agency to void contracts, to ensure that no
             USG funds go to terrorists. However, we would wish to ensure that any new
             authorities or responsibilities do not disrupt what currently works, and would have
             concerns with proposals that would indiscriminately expand DoD contracting
             provisions to the Agency. It is also important to note that USAID and DoD have

             u.s.AQe«:f for lntemalional Development
             1300 Pennsylvania A~. tNY
             WIIShrQton, DC 20523
             ..ww.UYid.gov




SIGAR Audit 13-14/Contracting with the Enemy                                                        Page 10
                                                -2-



            different purposes and modalities for contracting, which is why we have different
            authorities and not identical systems.

                We welcome further dialogue on this topic, and appreciate the opportunity to
            comment. Thank you.




                                                 /}ely~~//
                                                 ~:a:pler                  /
                                                  Acting Assistant to the Administrator
                                                 'o ffice of Afghanistan and Pakistan Affairs
                                                  USAID




SIGAR Audit 13-14/Contracting with the Enemy                                                    Page 11
APPENDIX IV - ACKNOWLEDGMENTS

Gabriele Tonsil, Senior Audit Manager
Scott Harmon, Auditor-in-Charge
Martin Wilson, Program Analyst


The following staff assisted with fieldwork:
Paola Bobadilla, Program Analyst




SIGAR Audit 13-14/Contracting with the Enemy   Page 12
                                  This performance audit was conducted
                                     under project code SIGAR-066A.




SIGAR Audit 13-14/Contracting with the Enemy                             Page 13
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan 318-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
